                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 112080059                                                                   Page 1 of 1



                 We received an allegation that an employee 1 of a grantee organization2 started his own
         company3 which then received a subcontract from the grantee organization. We reviewed NSF
         and other records and determined that the employee's company did not receive any NSF funds in
         the form of a subcontract or otherwise. Currently, there are no active grants to the grantee
         organization.


                   This case is closed with no further action taken.




         2




NSF OIG Form 2 (11102)
